June 30, 2004
Report No. 04-023



FDIC’s Insured Depository Institution Closing
Procedures




            AUDIT REPORT
                                                   TABLE OF CONTENTS

BACKGROUND ................................................................................................................................ 1

          Proforma Function................................................................................................................. 2
          Asset Servicing Functions......................................................................................................3

RESULTS OF AUDIT....................................................................................................................... 4

FINDING A: PROFORMA FINANCIAL STATEMENTS.................................................................5

          Proforma Guidance ............................................................................................................... 5

FINDING B: COORDINATION OF ASSET SERVICING FUNCTIONS ................................ 6

          Procedures for Coordinating Asset Servicing Functions ...................................................6
          Asset Servicing ....................................................................................................................... 6

CORPORATION COMMENTS ......................................................................................................7

APPENDIX I: OBJECTIVE, SCOPE, AND METHODOLOGY................................................. 8

APPENDIX II: PROFORMA JACKET..........................................................................................10


TABLE

Conversion of the Two Failed Banks’ Assets .................................................................................. 7
power to "conduct all business of the institution," section 1821(d)(2)(B)(i); "perform all
functions of the institution … consistent with the appointment as conservator or receiver,"
section 1821(d)(2)(B)(iii); and "preserve and conserve the assets and property of such
institution," section 1821(d)(2)(B)(iv).

The primary objective of the FDIC as receiver is to maximize the value of the failed institution’s
assets in order to limit losses to the deposit insurance funds and repay uninsured depositors and
general creditors. DRR has an important role in liquidating these assets in the most cost-
effective manner possible.

Upon institution failure, some or all of the assets of the failed institution may be purchased by a
healthy insured financial depository institution through a Purchase and Assumption Transaction
(P&A).2 Any remaining assets or liabilities will be placed in receivership. DRR appoints a
Receiver in Charge (RIC) who is responsible for planning all DRR operational activities to
prepare a failing institution for receivership. The RIC also coordinates efforts with a Closing
Manager who is responsible for managing and coordinating all activities related to the
preparation and closing of an institution.

The FDIC’s Receivership Management Program, one of the FDIC’s three main business lines,
includes performing the closing function at the failed institution, maintaining the value of and
liquidating any remaining failed institution assets, and distributing any proceeds of the
liquidation to those with approved claims of the receivership. The primary focus of the closing
function involves the financial closing process, which encompasses the Proforma, asset
servicing, and tax functions.3 Procedures and guidance for these functions are contained in
DRR’s Failed Financial Institution Closing Manual, dated September 2002, and Proforma
Training Manual, dated September 2002. We did not include the tax function in the scope of our
audit.


Proforma Function

Completion of the Proforma function is the main objective of the closing weekend, which
involves controlling, inventorying, and balancing the books of the failed institution. According
to the Proforma Training Manual, the primary focus of Proforma is to produce a final Statement
of Condition that reflects a reasonably accurate financial condition of the failed financial
institution and separate financial statements that reflect assets and liabilities passed to the
acquirer or retained by the receiver based on the terms of the governing P&A agreement. DRR
assigns a Proforma team to the closing, consisting of a Financial Manager, Proforma Team
Leader, and Proforma Support Staff. The Financial Manager is responsible for oversight of the
financial closing process. The Proforma Team Leader directs the Proforma process for the failed

2
  A P&A is a resolution transaction in which a healthy institution purchases some or all of the assets of a failed
institution and assumes some or all of the liabilities, including all insured deposits.
3
  The tax function includes assuring that all tax-related responsibilities of the receivership are properly addressed
and obtaining all information necessary to fulfill the tax reporting responsibilities remaining with the receivership.

                                                           2
institution. Proforma Support Staff are responsible for reconciling and confirming the general
ledger accounts of the failed institution and adjusting, if necessary, the account balances. This
confirmation process is controlled through the use of Proforma Jackets,4 which support the
closed institution’s final Statement of Condition. One or more jackets are prepared for each
general ledger account. DRR’s reconciliation of the last general ledger balance with the bank’s
final closing balance is documented on the outside of the jacket, which is illustrated in
Appendix II.


Asset Servicing Functions

In performing the asset servicing functions, DRR assesses the institution’s asset portfolio,
provides for interim servicing, and initiates conversion of the failed financial institution’s assets
to either an external servicer and/or the FDIC’s in-house servicing system. The asset servicing
functions provide support, direction, and guidelines for accurately accounting for and reporting
of assets during the interim servicing period and conversion process. A DRR Team Leader
directs the work of the DRR asset servicing staff and coordinates the functions with the DRR
Asset Manager, Proforma Team Leader, Financial Manager, and Division of Information
Resources Management (DIRM) Manager during the initial stages of the closing process. The
Team Leader is responsible for ensuring that conversions are completed in a timely manner and
are accurately coordinated with DRR’s Franchise Marketing section, which is responsible for
marketing the failed institution to prospective bidders.

DRR’s 2004 Strategic Plan includes a goal of marketing at least 85 percent of the book value of a
failed financial institution’s saleable assets within 90 days of failure. Therefore, the strategies of
DRR’s Franchise and Asset Marketing and Asset Management sections are considered in the
coordination of the asset servicing functions during the closing weekend. Generally, loan pools
to be offered for sale with the failed institution will consist primarily of performing loans,
defined as loans that are less than 60 days delinquent.5 Servicing of these loans would generally
remain with the servicing function in place at the time of closing until the sale is closed. Loan
pools to be offered for sale separate from the franchise transaction include nonperforming and
unique or unusual performing loans for which the market may be specialized or when the pre-
closing sale may not generate adequate competition for that loan pool. The RIC determines
whether to service these loans in-house using DRR staff or to continue the existing external
servicing arrangement. This determination is made based on input from DRR Franchise and
Asset Marketing and Asset Management staffs regarding estimated timeframes for assets to be
sold or otherwise liquidated by payoff or negotiated settlement with the borrower. DRR
maintains an inventory of loan and other asset data on the FDIC’s National Asset Inventory
System (NAIS).6 Loans that are serviced in-house by DRR staff are converted to the FDIC’s

4
  Proforma Jackets contain information gathered through the Proforma process that verifies and reconciles the failed
institution’s general ledger accounts.
5
  The DRR standard loan sale agreement defines a performing loan as any loan for which the last payment of
required principal, interest, and any escrow amounts occurs less than 60 days prior to the calculation date for the
sale.
6
  NAIS is a data repository used by DRR to maintain an inventory of all FDIC assets in receivership.

                                                         3
National Processing System (NPS),7 which DRR staff use to record new assets and subsequent
financial adjustments. DRR prepares an Asset Reconciliation of the total assets of the failed
financial institution. The reconciliation identifies assets being converted to the NPS, external
servicers, and other interim servicing arrangements.


RESULTS OF AUDIT

Based on our review of the two largest banks that failed in 2003, we determined that DRR has
established and implemented effective guidance and procedures for preparing Proforma financial
statements and coordinating the asset servicing functions.

    •   DRR’s guidance for preparing Proforma financial statements identifies the roles and
        responsibilities of the closing team and provides step-by-step procedures and detailed
        checklists for completing Proforma Jackets for each account. We found no significant
        exceptions during our review of Proforma financial statements and supporting Proforma
        Jackets for the two bank closings. Additionally, Proforma teams included personnel with
        sufficient training and expertise to perform required Proforma assignments. (See Finding
        A: Proforma Financial Statements.)

    •   DRR has established effective procedures for coordinating asset servicing functions.
        Assets from the two failed banks we reviewed were appropriately converted to FDIC’s
        NPS and were reconciled to the Proforma financial statements. Further, loan and other
        asset records from the two failed banks were appropriately transferred and recorded in the
        FDIC’s NAIS. (See Finding B: Coordination of Asset Servicing.)

Because we found no significant exceptions during our audit work, we are making no
recommendations related to the audit objective.




7
  NPS is an asset processing system DRR uses to account for loans and related financial transactions acquired from
failed financial depository institutions.




                                                         4
FINDING A: PROFORMA FINANCIAL STATEMENTS

Our review of the two largest banks that failed in 2003 showed that DRR has established
adequate procedures for preparing Proforma financial statements during the closing of failed
institutions. Specifically, the Proforma teams properly confirmed and adjusted general ledger
accounts of the failed institutions. Further, DRR’s Proforma files supported the closed
institutions’ final Statements of Condition, and Proforma Jackets were complete and prepared in
accordance with DRR procedures. Also, DRR staff assigned to Proforma teams received
adequate training and had the experience necessary to perform their assigned duties during the
bank closings.


Proforma Guidance

DRR’s Proforma Training Manual, dated September 2002, provides detailed procedures for
completing Proforma financial statements. The guidance identifies the roles and responsibilities
of the closing team and provides step-by-step procedures and detailed checklists for Proforma
team members in preparing Proforma Jackets for each account. The procedures addressed all
Proforma steps for various types of bank closing transactions.

We compared the Proforma financial statements and supporting Proforma Jackets used to
document the confirmations and adjustments of the two failed institutions’ general ledger
accounts with the respective final Statement of Condition for each institution. We reviewed and
tested 40 of the 89 Proforma Jackets related to the Proforma financial statements for Southern
Pacific Bank and all 41 Proforma Jackets related to the Proforma financial statements for First
National Bank of Blanchardville. We concluded that the jackets were accurately calculated and
that adjustments were adequately supported and found no significant exceptions related to either
closing. We noted minor exceptions, however, related to signatures of approving officials on
five Proforma Jackets. The Proforma Training Manual requires that each Proforma Jacket be
signed by both the Proforma Team Leader and the Financial Manager. However, only the Team
Leader had signed three of the jackets for the Southern Pacific closing. Two of the jackets for
the Blanchardville closing had only the Financial Manager’s signature. All other jackets were
properly signed by both reviewers. Considering that the Proforma Jackets we reviewed were
accurate and reviewed by at least one supervisor, we concluded that this issue did not warrant
additional audit testing or management attention.

DRR had pre-assigned Proforma teams to conduct the Proforma work at bank closings. We sent
a questionnaire to 30 Proforma team members regarding the number of bank closings they had
attended and the extent of Proforma training they had received. Team members reported
working an average of 4 years in the Proforma Function; 27 of the 30 Proforma team members
had worked on at least 3 bank closings; and 24 members had experience in at least 5 or more
bank closings. Proforma procedures have remained generally the same since 1999, and every
member either had taken a Proforma training class during the last 4 years or was scheduled to
take Proforma training in 2004. Further, DRR has established a computer-based training course
to provide training for DRR staff as needed.

                                               5
FINDING B: COORDINATION OF ASSET SERVICING FUNCTIONS

Based on our review of the two failed banks, we determined that DRR has established and
implemented effective procedures for coordinating the asset servicing functions during the
closing of failed financial institutions. DRR’s Failed Financial Institution Closing Manual
(Closing Manual), Conversions Manual, and Asset Disposition Manual provide adequate
guidance and internal controls on the roles and responsibilities for pre-closing evaluations,
conversions, and interim servicing procedures. We found that the files related to the asset
coordination functions at the closings of Southern Pacific Bank and First National Bank of
Blanchardville contained adequate documentation evidencing that assets of the failed financial
institutions were properly converted to FDIC systems.


Procedures for Coordinating Asset Servicing Functions

Procedures for coordinating asset servicing functions during the closing of failed financial
institutions are included in DRR’s Closing Manual, dated September 2002, and Conversions
Manual, dated January 2000. Our review of these documents showed that both manuals provide
detailed procedures and sufficient guidance for DRR closing personnel to perform the asset
servicing functions. For example, the Closing Manual includes detailed checklists on the roles
and responsibilities of closing team members and descriptions of tasks to be completed.
Examples of documents to be used such as letters and receipts are also included. The
Conversions Manual describes interim servicing procedures, the pre-closing assessment, and
related closing responsibilities. The manual also includes examples of documents to be
completed and contains detailed descriptions of responsibilities for coordinating asset servicing
functions.


Asset Servicing

Southern Pacific Bank was closed on February 7, 2003 with assets totaling about $1.05 billion.
First National Bank of Blanchardville was closed on May 9, 2003 with assets totaling about
$35.1 million. We reviewed closing files for the two institutions, including the loan portfolio
summary, conversion files, asset reconciliation reports, NPS inventories, and NAIS inventories.
Details on the conversion of the failed banks’ assets as of the closing dates are shown in the table
on the next page.




                                                 6
Conversion of the Two Failed Banks’ Assets
                                                                             Number and
                                                              Number and     Book Value
                                                              Book Value      of Assets      Number and
                                                               of Assets       with an      Book Value of
                                              Number and      Assumed by     External or       Assets
                                              Book Value          the          Interim      Transferred to
                                  Type of      of Initial      Acquiring        Loan          DRR for
 Failed Bank     Failure Date    Resolution     Assets           Bank         Servicer        Servicing

   Southern      02/07/2003         P&A           955             42             843              70
    Pacific
     Bank                                     $1.05 billion   $205 million   $626 million    $220 million



First National    05/09/2003        P&A           771            None           None             771
   Bank of
Blanchardville                                $35.1 million                                  $35.1 million




Source: DRR Receivership Status Reports.



To determine whether assets of the failed institution were properly converted to FDIC systems,
we selected a random sample of 50 assets from the records for Southern Pacific Bank and
30 assets from the records for First National Bank of Blanchardville. We obtained access to the
FDIC’s NAIS to verify that all of the assets had been recorded in the FDIC’s asset inventory.
We located all 80 of the assets and found no exceptions. Also, we reviewed conversion files to
determine whether adequate documentation was maintained on the conversion process in
accordance with DRR’s Conversions Manual. We found conversion files that adequately
documented the status of those loans converted to the NPS. Further, we verified that Asset
Reconciliation reports reconciled to the Proforma financial statements and accounted for assets
converted to the NPS.


CORPORATION COMMENTS

A written response was not required for the report. DRR advised the OIG that it had no official
comments and identified two minor but needed revisions, which we incorporated into the report.




                                                    7
                                                                                         APPENDIX I


                        OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of the audit was to determine whether DRR has established and implemented adequate
procedures for preparing Proforma financial statements and coordinating asset servicing functions.
We reviewed the DRR policies and procedures established for closings of failed financial
institutions. The audit scope included the two largest FDIC-insured depository institutions closed in
2003. We terminated our field work on this audit after our survey work based on the results of
testing we performed. We performed our work from February through April 2004 in the DRR
Dallas Regional Office and Washington, D.C., office in accordance with generally accepted
government auditing standards.

To accomplish our objectives and to gain an understanding of internal controls, we reviewed the
following DRR documents.

        •   Failed Financial Institution Closing Manual, September 2002
        •   Proforma Training Manual, September 2002
        •   Conversions Manual, January 2000
        •   Asset Disposition Manual, October 2002
        •   Monitoring Plan for Residential Mortgages, October 2003
        •   Closing Book for First National Bank of Blanchardville
        •   Inventory Book for First National Bank of Blanchardville
        •   Asset Reconciliation for Southern Pacific Bank and First National Bank of
            Blanchardville
        •   Proforma files for Southern Pacific Bank and First National Bank of Blanchardville

We interviewed key personnel in DRR’s Accounting Operations, Franchise and Asset Marketing,
and Asset Management sections to further obtain an understanding of the procedures and processes
involved in the Proforma and asset servicing functions at the closing of a failed financial institution.

To test the accuracy and completeness of the procedures for completion of the Proforma financial
statements, we reviewed all 41 of the Proforma Jackets from the closing of First National Bank of
Blanchardville and 40 (45 percent) of the 89 Proforma Jackets from the closing of Southern Pacific
Bank. We recalculated the adjustments for each jacket and compared them to the supporting
documentation. Also, we verified whether the jackets contained the appropriate signatures as
required by DRR’s Proforma Training Manual. To obtain information on the Proforma bank
closing experience and training of the DRR Proforma teams, we sent a questionnaire to the team
members and received 30 responses.

To evaluate procedures for the coordination of asset servicing related to the closings of Southern
Pacific Bank and First National Bank of Blanchardville, we reviewed Asset Reconciliation reports,
conversion files, DRR External Servicer Reports, National Processing System Inventories, closing
books, and related documentation.




                                                   8
                                                                                       APPENDIX I


To determine whether assets from the records of the failed institutions had been accurately recorded
by the FDIC, we selected a random sample of 80 assets from the population of 1,726 assets in the
records of the 2 failed banks and verified that the assets were included in the FDIC’s NAIS.


Government Performance and Results Act, Reliance on Computer-Generated Data, Fraud
and Illegal Acts, Compliance with Laws and Regulations, and Management Controls

To determine whether DRR had any performance measures that we should consider in this audit, we
reviewed DRR’s 2004 Strategic Plan. The plan includes a goal of marketing at least 85 percent of
the book value of a failed institution’s saleable assets within 90 days of failure. This goal was not
specifically related to our audit objective. However, DRR includes another goal to ensure that the
Receivership Status Report and Action Plan are finalized within 120 days of failure. We reviewed
the Receivership Status Reports for the two failed institutions included in our audit scope and found
both reports had been completed within 120 days of the failure date of the institutions.

We did not rely on the accuracy of computer-processed data and did not perform any work to
determine the reliability of computer-processed data. Not performing assessments of computer-
processed data did not affect the results of our audit.

Our audit program did include steps for providing reasonable assurance of detecting fraud or illegal
acts. We gained an understanding of applicable laws and regulations by examining the Federal
Deposit Insurance Act of September 21, 1950, P.L. No. 797, as codified at 12 United States Code,
section 1821(d), Powers and Duties of the Corporation as Conservator or Receiver. Also, our audit
testing covered aspects of internal controls, and no significant exceptions were noted during these
audit tests.




                                                 9
     F E D E R A L D E P O S IT IN S U R A N C E C O R P .        F A IL E D I N S T I T U T I O N N A M E A N D A D D R E S S :
     P R O FO R M A JA C KE T                                                                                                                           A F F IX P R
                                                                                                                                                     LABEL HERE
     G e n e r a l L e d g e r B a la n c e                   $
     P ro F o rm a                  ADJ       Jacket     PRO
     A d ju s tm e n ts :          REG #        #      FORM A #   C L O S IN G D A T E :
     A d j F r o m T h is J a c k e t:                            Reason:
               DR
               CR                                                       (         )
               DR
               CR                                                       (         )
               DR                                                                                          IN IT IA T E D A D J U S T M E N T S
               CR                                                       (         )                                ( T H IS J A C K E T )
               DR
               CR                                                       (         )
               DR




                                                                                                                                                                       PROFORMA JACKET
               CR                                                       (         )
               DR
               CR                                                       (         )
               DR
               CR                                                       (         )
               DR
               CR                                                       (         )
               DR
               CR                                                       (         )
     S u b to ta l                                            $   P re p a re d b y P ro F o rm a S u p p o rt:
     A d j F r o m O th e r J a c k e t s :
10




               DR
               CR                                                       (         )
               DR                                                                                          I N C O M IN G A D J U S T M E N T S
               CR                                                       (         )                        (F R O M A N O T H E R J A C K E T )
               DR
               CR                                                       (         )
               DR
               CR                                                       (         )
     A d ju s t e d P r o F o r m a B a la n c e              $
     L e s s : A s s u m in g B a n k P o r t io n
     F D IC P o r t io n                                      $   R e v ie w e d b y P r o F o r m a M a n a g e r :
     D A C S A d ju s tm e n ts :
            DR
            CR                                                          (         )
                                                                                                               D AC S O R LAS ADJU STM ENTS
            DR                                                                                                C A S H B A S IS F O R F D I C A S S E T S
            CR                                                          (         )
     A d ju s t e d F D IC B a la n c e                       $   R e v ie w e d b y L A S M a n a g e r :
                                                                  F o llo w - u p :     C o m m e n ts :
                                                                  YES (             )
                                                                  NO       (        )




                                                                                                                                                                          APPENDIX II
